No.

IN THE
SUPREME COURT OF THE UNITED STATES

In the Matter of the Estate of:
Erline Hall Phillips, an Incapacitated
and Protected Person.
CHERIE PHILLIPS
- PETITIONER
v.
CHARO ROWLEY
- RESPONDENT

PROOF OF SERVICE
I, Cherie Phillips, do swear or declare that on this date, April 29, 2021, as
required by Supreme Court Rule 29, I have served the enclosed MOTION FOR LEAVE
TO PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF CERTIORARI
on each party to the above proceeding or that party’s counsel, and on every other
person required to be served, by depositing an envelope containing the above
documents in the United States mail properly addressed to each of them and with

first-class postage prepaid, or by delivery to a third-party commercial carrier for delivery
within 3 calendar days.
The names and addresses of those served are as follows:

Ms. Charo Rowley
1204 W. Hudson Ave.
Nampa, ID 83651
I declare under penalty of perjury that the foregoing is true and correct.

Executed on: May 1,2021

Rev. Cherie Phillips, Stoic Priest
1926 Madera St., Apt. 209
Waukesha, Wl 53189
(262) 309-6178

2

